                               TESTIMONY OF

                            MICHAEL CARROLL,

                      ACTING INSPECTOR GENERAL,

         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                                 BEFORE THE 


SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT OF 

    THE SENATE COMMITTEE ON HOMELAND SECURITY AND 

                GOVERNMENTAL AFFAIRS





                   “OVERSIGHT OF SMALL AGENCIES” 




                               APRIL 10, 2014



       Chairman McCaskill, Ranking Member Johnson, and members of the
Committee, I am pleased to appear before you to testify on behalf of the Office of
Inspector General (OIG) for the U.S. Agency for International Development
(USAID). Today, I would like to discuss the challenges and opportunities of
providing oversight of small agencies and the approaches we use to ensure
accountability.

        There are a number of possible approaches for providing oversight of
smaller federal agencies. Such agencies can be identified as designated federal
entities under the Inspector General Act and have inspectors general that are
appointed by the head of that entity. Alternatively, individual agency inspectors
general may be appointed by the President and subject to confirmation by the
Senate. In either case, corresponding OIGs may perform the full suite of oversight
activities themselves or work with other oversight bodies to perform this work.
Another option is to provide a larger OIG with oversight authority over several
related agencies. Finally, in some circumstances, agencies may enter into
agreements with OIGs for oversight services. These last two arrangements are the
models that we have operated under at USAID OIG and on which we are in the
best position to comment. Accordingly, I will discuss the basis for our current
oversight arrangements and the approaches that we have taken to oversight of
smaller agencies.

        USAID OIG was established in 1980 to combat waste, fraud, and abuse and
promote economy, efficiency, and effectiveness in USAID programs and
activities. Our oversight mandate has since grown to encompass the full portfolio
of programs and activities at USAID, the U.S. African Development Foundation
(USADF), Inter-American Foundation (IAF), and Millennium Challenge
Corporation (MCC). OIG assumed audit and investigative oversight of USADF
and IAF in 1999. We were given oversight responsibilities relating to the MCC
when it was established in 2004. OIG also has a limited oversight role in
association with the Overseas Private Investment Corporation (OPIC) that dates
back to 1981.

        Our mission is to provide independent oversight that promotes efficiency
and effectiveness and safeguards the integrity of programs and operations under
our jurisdiction. As is the case with any OIG, some of our work is mandated by
statute or other requirements, while other work is performed on the basis of our
priorities and assessments of where needs lie. In identifying and prioritizing
discretionary audit and investigative activities we consider stakeholder interests
and needs, alignment with strategic goals, program funding, and the risks
associated with agency programs, including potential vulnerabilities in internal
controls. We apply this approach to oversight to all of the agencies for which we
have oversight responsibilities.

       We bring significant resources and capabilities to bear on the oversight
responsibilities with which we have been entrusted. We have substantial depth of
experience and a considerable personnel base with expertise in the full range of
core oversight-related fields. In executing our oversight mandate, we are able to
rely on the work of a talented corps of dedicated performance auditors, financial
auditors, certified public accountants, program and management analysts,
information technology auditors, and criminal investigators.

      Our consolidated, multiagency approach to oversight has several
advantages. We can access a greater depth of in-house expertise in different


                                      - 2 -

technical and functional areas than would be the case if were we a smaller OIG.
With more resources than a smaller OIG, we also have greater flexibility to
address emerging risks across our oversight portfolio. This has enabled us, for
example, to reallocate resources in response to pressing oversight demands arising
from emerging contingency operations and humanitarian crises and ensure that
high-risk activities and operations receive needed coverage.

       Our size also enhances our independence. We have sufficient critical mass
to support and maintain discrete management, human capital, and IT resources and
systems independent of the agencies we oversee. Our engagement in multiple
agency settings also lessens our vulnerability to potential pressure from any one
agency seeking inappropriate influence on our work. Our ability to operate
independent of improper influence is also reinforced by the appointment process
for the USAID Inspector General (IG). Although I can personally attest to the
difficulties that delays associated with the Presidential appointment and Senate
confirmation process can impose on an individual, this rigorous process helps
ensure that, at the end of the day, our IG will be fully vetted and enjoy an
important measure of congressional support.

        We have certain other institutional advantages in providing oversight of
foreign assistance. Principal among these is our extensive international reach and
experience. Our footprint extends to nine country and regional offices around the
world, giving us on-the-ground visibility into the progress of foreign assistance
programs and activities. Unlike other offices serving abroad, we are not subject to
personnel ceilings imposed by the Secretary of State and enjoy greater latitude in
assigning staff to respond to oversight needs in the nearly 100 countries in which
the agencies we oversee operate. We also maintain our own cadre of Foreign
Service personnel consisting of career auditors, investigators, and analysts to staff
our offices abroad. We have built on our long experience abroad by developing a
track record of effectively engaging host country law enforcement personnel,
prosecutors, and courts to bring those who commit fraud and other unlawful acts
to justice.

       The fact that we have responsibility for oversight of multiple agencies also
presents advantages. This feature places us in a unique position to provide
oversight of cross-cutting initiatives like Power Africa that are implemented by
more than one foreign assistance agency. Given the Administration’s emphasis on
implementing foreign assistance through a whole-of-government approach in
recent years, we anticipate having more opportunities for cross-cutting work to
examine the effectiveness of multiagency efforts in the future.

      Although our consolidated oversight model has many strengths, it also
involves some challenges. Principal among these is the need to balance oversight


                                        - 3 -

responsibilities across multiple portfolios of varying sizes. USAID managed
about $24 billion in budgetary resources in fiscal year (FY) 2013. For its part,
MCC managed budgetary resources amounting to $2.7 billion. Meanwhile,
USADF and IAF were responsible for significantly less, $36 and $35 million,
respectively, in FY 2013.

       While our oversight requirements are substantially greater for USAID than
for other agencies with which we work, we invest proportionally more in oversight
of small agencies when they are considered on a dollar-for-dollar basis. We
perform core financial statement and Federal Information Security Management
Act oversight work for all the agencies we oversee, and work to ensure that each
agency receives a degree of oversight commensurate with associated program
risks. We plan and execute performance audits and reviews and conduct
investigative outreach efforts in line with this assessment. For USADF and IAF,
we have performed less of this activity than for MCC, but remain engaged
nevertheless. In the case of USADF, we completed a performance audit a few
weeks ago on programs in Kenya, while one of our two Special Agents in Charge
delivered fraud awareness briefings to staff at IAF last month. Meanwhile, due to
the scale of MCC’s programs and attendant risks, we established a performance
audit unit with specific responsibility for MCC oversight along with a dedicated
special agent position to focus on related investigations. By dedicating these
resources to MCC oversight, we ensure a high degree of knowledge and
understanding of MCC systems and processes and continuing vigilance regarding
related risks.

       The other oversight model under which we operate provides less assurance
to taxpayers that risks are being appropriately addressed. Under this model,
agencies enter into agreements with OIGs for oversight services. This is the case
with OPIC, with regard to which we have a limited oversight role. We are not
formally designated as OPIC’s OIG and do not have explicit authority to conduct
audits of OPIC programs and activities that we deem appropriate. Rather, our
engagement with OPIC is a matter of agreement. In each of the past 2 years,
Congress has directed that our offices enter into an agreement for oversight
services.

       Under this arrangement, OPIC has regarded oversight as negotiable. It has
delayed related discussions with the predictable effect of limiting the amount of
time available to perform oversight activities and possibly also increasing the costs
of those activities. As a result of delays on OPIC’s part, we did not reach an
agreement on FY 2013 oversight until half way through the fiscal year and have
yet to reach agreement for FY 2014 activities. In addition to delaying the
execution of agreements, OPIC has sought to limit the scope of those activities,



                                        - 4 -

sometimes ruling out support for oversight activities without understanding the
requirements associated with them or consulting with our office.

       This arrangement—whereby the subject of oversight dictates the types of
oversight it receives and the terms under which that oversight is provided—does
not serve taxpayers well. Congress has recognized a need for improvement in the
oversight framework surrounding OPIC and several related proposals have been
advanced. However, an effective long-term solution for OPIC oversight has yet to
emerge.

       We are encouraged by the Committee’s interest in this topic and have views
on elements to be considered as part of any long-term legislative solution for
OPIC oversight. Whatever oversight arrangement is ultimately set for OPIC
should provide the chosen oversight entity with the authorities needed to conduct
the full range of oversight activities and have access to the information, facilities,
and personnel provided under the IG Act. That office would benefit by a
transparent budgeting process and by the independent appointment of a principal,
subject to removal only under the conditions specified in the IG Act. To ensure
that any possible successor oversight body benefits by future measures to
strengthen OIGs and to enhance their performance along the lines of those enacted
through the IG Reform and Dodd-Frank Acts, we would also recommend its
establishment within the context of the IG Act rather than as part of an agency’s
organic statute.

        While there are opportunities to improve the legal framework around
oversight of the other agencies we oversee, our most pressing legislative priorities
relate to OPIC. The oversight framework under which OPIC operates should be
reformed. Although we have been able to operate effectively with respect to the
other organizations we oversee, the statutory basis for engagement with OPIC
does not provide reasonable assurance that important risks will be addressed. We
look forward to working with Congress to make corresponding improvements to
the law and to discussing other possible statutory refinements to enhance
oversight.

       Thank you for this opportunity to address the Committee. We appreciate
your continuing interest and attention to the oversight of small agencies. We look
forward to continuing to work with Congress and the Administration to meet
related challenges and move forward as a community in improving how we
conduct oversight. I would be happy to answer any questions you may have at this
time.




                                        - 5 -

